<html>
<title> - THE NATIONAL DRUG CONTROL STRATEGY FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
              THE NATIONAL DRUG CONTROL STRATEGY FOR 2002

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2002

                               __________

                           Serial No. 107-149

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2003
84-333 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Christopher Donesa, Staff Director and Chief Counsel
          Nick Coleman, Professional Staff Member and Counsel
                          Conn Carroll, Clerk
                     Tony Haywood, Minority Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 26, 2002................................     1
Statement of:
    Walters, John, Director, Office of National Drug Control 
      Policy, accompanied by David Riviat, Budget Chief, Office 
      of National Drug Control Policy............................    13
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    11
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................    44
    Walters, John, Director, Office of National Drug Control 
      Policy, prepared statement of..............................    18

              THE NATIONAL DRUG CONTROL STRATEGY FOR 2002

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2002

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room 2154, Rayburn House Office Building, Hon. John L. Mica 
(member of the subcommittee) presiding.
    Present: Representatives Mica and Cummings.
    Staff present: Chris Donesa, staff director and chief 
counsel; Sharon Pinkerton, senior advisor and counsel; Nick 
Coleman, Jim Rendon, and Roland Foster, professional staff 
members; Conn Carroll, clerk; Tony Haywood, minority counsel; 
Asi Ofuso, minority professional staff member; and Jean Gosa, 
minority assistant clerk.
    Mr. Mica. Good afternoon. I would like to call this 
subcommittee meeting to order. Today the Criminal Justice, Drug 
Policy and Human Resources Subcommittee is conducting the first 
oversight hearing of the 2002 National Drug Control Strategy. 
I'm pleased to welcome, I think for the first time before the 
panel, on drug strategy by the new administration, Mr. John 
Walters, Director of the Office of National Drug Control 
Policy. The order of business will be, first, opening 
statements by myself, Mr. Cummings, the ranking member, or any 
other Members who join us, and then we'll go directly to Mr. 
Walters, and I will proceed with my statement at this time.
    I was really delighted to recently attend, along with Mr. 
Cummings, a White House ceremony which announced this strategy 
just a few days ago at which the President of the United States 
gave a very inspiring speech about the importance of the issue 
of illegal narcotics and drug abuse and prevention to our 
Nation.
    It's most heartening for me personally as former chair of 
the subcommittee, member of this subcommittee for a number of 
years, to find a change in strategy, a change in messages, no 
longer the mixed message that we heard unfortunately, and I 
think for the first time leadership is being exercised by our 
Commander in Chief and he is taking a very personal and direct 
interest in this issue. We're now unfortunately paying the 
price of the strategy of mixed messages, and at the national 
level the statistics on drug use, particularly among our young 
people, continue to be worrying and sobering.
    Drug overdose deaths continue to plague our metropolitan 
areas, our suburbs and our schools. Drug use is highest, 
unfortunately, also among our young people. Our 12th graders 
now proclaim, 54 percent of them, having tried an illicit drug 
within the past year. The monitoring of the future studies show 
a sharp increase in Ecstasy and while we may see some 
reductions in some traditionally difficult illegal narcotics, 
the Ecstasy explosion by eighth, 10th and 12th graders point 
that almost 12 percent of the 12th graders tried Ecstasy last 
year, and again we're experiencing an explosion across the 
board, and this new drug, serious narcotic, is a serious 
challenge to our young people.
    So while I'm encouraged by President Bush's choice for a 
new Director, and also I might point out just for the record, 
too, that having the new Drug Czar, Director of Office of 
National Drug Policy, having him here is long overdue and it's 
not his fault or this administration's fault. In fact, he was 
nominated by the President on June 5, 2001 and not confirmed 
until December 5, exactly I guess it's 6 months or longer, 184 
days. I just want to make certain that's inserted in the 
record.
    I'm still concerned, however, about the legacy of the 
previous administration and recognize that much more work needs 
to be done and glad that finally we have the new Director in 
place.
    Some of the strengths in the White House drug strategy 
include a budget increase for the Drug-Free Communities Act, 
which has had wide bipartisan support in Congress. Grant 
recipients under that program worked hard to win matching funds 
and should in fact be rewarded for their successes and 
realization that much of this work falls on the--as a 
responsibility of local groups and communities.
    The 105th Congress passed an ONDCP reauthorization bill 
with hard targets for reducing drug use. This year's strategy 
document lays out a 2-year goal of a 10 percent reduction and a 
5-year goal of a 25 percent reduction in drug use. Sadly the 
previous administration failed in reaching the performance 
levels it set. I'm anxious to see some movement in these 
figures and hope that we're more successful with the current 
administration in its efforts and also in achieving its goals.
    I also continue to be concerned by the medical marijuana 
phenomenon. In this last election cycle more States fell prey 
to ballot initiatives sponsored by wealthy out-of-state drug 
legalizers. We must do more to show that inhaling marijuana is 
simply not good for anyone's health.
    Additionally, many of us here in Congress have wrangled 
with the previous administration for more than several years 
over properly equipping the Colombian anti-narcotics police 
with helicopters and other equipment capable of conducting 
heroin eradication, as President Pastrana has now stepped up 
his resistance, and some of that I think is long overdue. 
President Pastrana rightfully attempted a number of peace 
initiatives over the past 3 years, and unfortunately terrorists 
who were financing their illegal terrorist activity with drug 
money don't respect anything but sheer force and now I think 
President Pastrana has woken up to that reality, unfortunately, 
in the last days of his term, but we must do everything 
possible to assist him in his fight against narcoterrorism, 
another form of terrorism that's afflicted more than 35,000 
deaths on a great country and great people.
    The previous administration's response to the heroin 
epidemic was more treatment dollars and expanded methadone 
maintenance. In reading through this new strategy, I was 
pleased to see the introduction of the principle of 
compassionate coercion, which is listed in the treatment 
section. I'd encourage the Director to visit the DTAP, that's 
an acronym for Drug Treatment Alternative to Prison Program, in 
New York, which we had an opportunity to visit and one of the 
most successful programs I've seen in the country, and we've 
also modeled legislation which I hope we can get passed to 
initiate a Federal program.
    This DTAP program uses the prosecutor's leverage to put 
nonviolent offenders into drug treatment. It also uses a carrot 
and stick approach, which has proven to be one of the most 
successful approaches. They also dealt with people who aren't 
just recent simple record offenders but people with long lists 
of problems with narcotics and have been able to turn their 
lives around, and I hope that we'll have support from the 
administration for this legislative initiative.
    With that, I want to say I look forward to hearing from 
Director Walters today on these and other issues which are 
important to the members of the subcommittee, to parents and to 
young people. I'm delighted that he is here. I am pleased that 
even though the short time he has been on the job he has gotten 
the new policy before us enacted and acting in good rapid 
order, unlike the treatment he received the other side of the 
Congress.
    [The prepared statement of Hon. John L. Mica follows:]
    [GRAPHIC] [TIFF OMITTED] T4333.001
    
    [GRAPHIC] [TIFF OMITTED] T4333.002
    
    [GRAPHIC] [TIFF OMITTED] T4333.003
    
    [GRAPHIC] [TIFF OMITTED] T4333.004
    
    [GRAPHIC] [TIFF OMITTED] T4333.005
    
    Mr. Mica. This wasn't your fault. I think Mr. Cummings 
wanted someone on board rather than later, too, and I'm pleased 
to yield to him. He has been a good ally in this effort and I 
respect him very much and appreciate his leadership in the 
past.
    Mr. Cummings, you are recognized.
    Mr. Cummings. Thank you very much, Mr. Chairman. I am aware 
that Director Walters has an appointment very shortly, and we 
will keep that in mind.
    First, let me say that I am very happy to see Director 
Walters again, having had the opportunity to spend some real 
quality time with the Drug Czar in Baltimore just last Friday. 
Shortly after his swearing in, Director Walters reached out to 
me to schedule an informal meeting to get acquainted. During 
our meeting a little over 2 weeks ago, I extended to him an 
invitation to visit Baltimore so that the chief overseer of our 
national drug policy could see and hear firsthand what the city 
that I help to represent has been able to accomplish by 
approaching drug treatment and law enforcement with equal 
conviction, as two arms, if you will, of the same strategy. 
Director Walters demonstrated his good faith by not only 
accepting my invitation on the spot but making the visit a high 
priority.
    I don't know about you, Mr. Chairman, but in my experience 
2 weeks from an invitation to visit is a record--is record time 
when it comes to having a Cabinet official visit a 
congressional district, and I really do express my deepest 
appreciation, Director Walters.
    In recent years, as you know, Mr. Chairman, Baltimore has 
become known for its devastating heroin epidemic. With 
widespread drug addiction came a host of other problems, 
including dramatic increases in violent crimes, thefts, 
joblessness, HIV infection and deaths from overdose. The 
spillover effects on families, schools, and other government 
and community institutions compounded the devastation caused to 
those individuals involved. But using available Federal and 
State funds to expand access to on-demand treatment, Baltimore 
City has begun a remarkable turnaround, as indicated by a 
recent study entitled Steps to Success. This study will be the 
focal point of a field hearing the subcommittee will hold next 
Tuesday in Baltimore, and I will take this opportunity to thank 
you, Mr. Chairman, and Chairman Souder for making sure that 
hearing was scheduled.
    One thing we know is that the drug epidemic is no longer 
confined to our inner cities. The poison one picks may be 
different depending upon where one lives. But whether it's meth 
or cocaine or heroin or Ecstasy, the phenomenon of drug 
addiction is now painfully familiar to urban, suburban and 
rural communities alike. It is my hope that Baltimore's 
experience will provide full useful lessons for other 
communities across this Nation that are reeling from the impact 
of illegal substance abuse and the serious problems that come 
with it.
    The National Drug Control Strategy announced by President 
Bush and Director Walters on February 13 reflects the evolving 
scope of the nature of the drug problem as well as an evolution 
in the philosophy concerning how to combat the problem at home. 
Mr. Walters' credentials and accomplishments in this area of 
interdiction and enforcement are both substantial and well 
known to those in the drug community. However, as the Director 
is well aware, there are a number of Members of Congress, 
myself included, who expressed serious concerns and 
reservations about his nomination, in part because of his 
perceived lack of appreciation for the critical role that drug 
treatment must play in reducing demand. I am happy to say that 
I think the White House drug control strategy in conjunction 
with the President's fiscal year 2003 drug control budget helps 
to allay those concerns.
    The strategy identifies demand reduction as a central focus 
and states an explicit goal of achieving a 10 percent reduction 
in drug use over 2 years and a 25 percent reduction over 5 
years. Moreover, the President's proposal includes a $1.6 
billion increase in drug treatment funding over 5 years coupled 
with the solid commitment to the drug-free communities program, 
the national youth antidrug media campaign, drug courts, and 
other vital demand reduction programs, and I am very, very 
pleased about that.
    In general, what the strategy document seems to reflect on 
the demand reduction side is an emerging pragmatic consensus 
around the idea that drug treatment and law enforcement are 
most effective when approached as complementary rather than as 
competing objectives. The criminal justice system must work in 
concert with the drug treatment system and other elements of 
our drug control strategy to achieve positive long-term 
outcomes for users and addicts in the communities in which they 
reside. This is the approach that the Baltimore study 
vindicates and it is reflected in the Baltimore-Washington 
HIDTA, one of the few that includes a demands reduction 
component. It is my hope that the proposed $20 million 
reduction in funding for the HIDTA program in fiscal year 2003 
does not signal an erosion of support for either the Baltimore-
Washington HIDTA or for the program in general. I have been 
assured that is not the case, and I welcome the Director's 
comments on that issue.
    As I've said many times, Mr. Chairman, we are all the 
walking wounded, each of us with his or her own problems, 
vulnerabilities and weaknesses. These become magnified in the 
actual perceived absence of opportunities for self-realization. 
As the President stated, the evil of drugs is that they rob 
people of their dignity. Indeed, this is true. But drugs are an 
opportunistic thief also. They prey disproportionately upon 
people whose dignity is already under attack. So as we 
entertain a more holistic approach to combating the drug 
problem, I hope we'll recognize that demand for drugs is a 
function of many factors and that a truly comprehensive 
approach to the drug problem must entail addressing a wide 
range of critical issues confronting disadvantaged communities 
from the education to job training, health care, employment and 
so on.
    Thank you very much, Mr. Chairman, for having Director 
Walters here and appear so rapidly after the statement of the 
President the other day, and I certainly look forward to your 
testimony.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] T4333.006

[GRAPHIC] [TIFF OMITTED] T4333.007

    Mr. Mica. Thank you, Mr. Cummings. Mr. Cummings moves that 
the record be left open for an additional 2 weeks for 
additional Members or other statements?
    Mr. Cummings. That will be fine, Mr. Chairman.
    Mr. Mica. Without objection, so ordered. There being no 
other Members present at this time, we're going to go ahead and 
proceed with the testimony from our witness today, the 
Honorable John Walters, Director of the Office of National Drug 
Control Policy. I see you also have another gentleman with you. 
Is it Mr. Riviat? Budget Chief of the Office of National Drug 
Control Policy, and he does not have a statement but will be 
available. Are we going to ask him questions?
    Mr. Walters. I just want him to help out if there are 
detailed questions about the budget.
    Mr. Mica. Well, in that case this is an oversight and 
investigation subcommittee of Congress. So I will ask you both 
to stand then and be sworn in.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. I 
thank you. Welcome again. I am so pleased to see you, Director 
Walters. I don't think I spent any more time on any subject 
ever as far as an appointment with the White House personnel or 
personally talking to the President of the United States about 
the importance of an appointment as the one you've been greatly 
honored to receive. It's probably, I think, one the most 
important in the President's Cabinet and I consider it a high 
honor that he selected you. Your appearance here is delayed, 
unfortunately, through no cause of your own but we're pleased 
to have you here and welcome you at this time to present again 
the National Drug Control Strategy for 2002. Welcome, sir, and 
you're recognized.

 STATEMENT OF JOHN WALTERS, DIRECTOR, OFFICE OF NATIONAL DRUG 
  CONTROL POLICY, ACCOMPANIED BY DAVID RIVIAT, BUDGET CHIEF, 
             OFFICE OF NATIONAL DRUG CONTROL POLICY

    Mr. Walters. Thank you, Mr. Chairman, and I appreciate this 
opportunity to testify in regard to the drug control strategy 
released earlier this month. I'd also like to thank Ranking 
Member Cummings for his comments and also for helping to 
arrange the visit I made to Baltimore. It was helpful to our 
work, and it was inspiring to see the people that we met with 
there, so thank you for that as well.
    If it's all right with the committee, I'd ask that my 
prepared statement be put in the record and I'll just offer a 
summary.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record. Please proceed.
    Mr. Walters. Thank you. In summarizing the strategy, I 
should just say as a point of introduction that what we tried 
to do given my somewhat late arrival is capture and embed in 
policy and budget the initiatives and the largest principles of 
policy for the President's administration. We are now, as the 
President asked me, to undertake a thorough review of all 
programs and policies of a secretary and tertiary nature as 
well as looking at other kinds of opportunities. So we have not 
completed our entire policy review. Some of that's alluded to 
in the strategy document.
    Some of the programs and ideas that we've solicited and 
will continue to solicit from groups and individuals inside the 
government, including the Congress, and those outside we intend 
to incorporate in a larger review report for which we hope to 
have done in the next several months.
    What this strategy does do, though, is focus on three 
areas, as has been alluded to. The first is stopping drug use 
before it starts. I think this is settled and common sense 
experience that we need to do what we can to prevent young 
people from experimenting with drugs in the first place. It's 
far more preferable than dealing with the consequences of 
involvement with drugs and drug treatment and addiction 
incarceration in too many cases after drug use starts. We know 
from long experience that if we prevent young people from using 
drugs in their teens, they're unlikely to become involved later 
on.
    It not only makes sense on the front of saving individuals, 
families and communities but for the government at large and 
the larger front. The cost of drug use as we've now estimated 
it is over $160 billion per year in lost productivity, crime, 
other costs and illness and destruction to our society. That 
may be an underestimate, but it certainly is substantial in and 
of itself. Our concept is simple and tries to draw the relevant 
institutions of our society together, communities, schools, 
faith based institutions and service organizations, the media, 
employers, segments of the health community, law enforcement.
    Senator Cummings is correct, our goal is to eliminate the 
past, we think, fruitless debate about whether or not we should 
focus on supply or demand, whether we should do enforcement or 
prevention or treatment. And I believe these are a continuum of 
effort that need to be used across the board and when they are 
they are most effective.
    The second part of our plan, as previously mentioned, 
focuses on treatment. Not only have we set forth consistent 
with the President's earlier statements his pledge to add $1.6 
billion in Federal drug treatment funding over 5 years, but 
we've tried to talk about the task of treatment in a more, I 
think, accurate way that is consistent with the experience of 
all too many and I think most American families, communities 
and talking about both the nature of the problem in terms of 
the estimated 5 million people who have a dependence problem 
and need services of which the majority of them don't recognize 
themselves as having a problem and, in addition, of trying to 
provide services of an integrated fashion to those who come in 
for treatment.
    So we know this is both an outreach problem in bringing 
people in effectively, but also a treatment problem in 
providing high quality treatment, a variety of modalities, 
integrating a variety of related services and a need for 
support for recovery because treatment is the sure--first 
difficult, but nonetheless frequently the shortest step in the 
life of someone with this kind of problem.
    Recovery is a lifelong task, and we want to provide better 
ways of supporting it. A variety of Federal initiatives here 
that touch on this, but our goal is also to educate the public, 
to enlist more people to support these initiatives in both 
their funded form by the Federal Government but in a variety of 
other institutions providing--relying on resources from 
different sources and not all governmental. We are continuing 
the process of trying to both apply these resources in a 
targeted way based on need and refine our ability to measure 
need, but also in a way that's accountable and can be managed.
    In all these areas, whether it's prevention, treatment or 
enforcement resources, it has been my experience that the 
sustained support for these activities over time, especially in 
what we all know is going to be a more competitive budget 
environment, we need to have results and those results will be 
crucial. Despite the general commitments people have to this 
area, we are not going to gain those resources without 
demonstrating that they're a good investment.
    Finally, the strategy discusses our effort--and I would say 
this is probably the area where we have most of the additional 
work to do--to reevaluate our supply reduction efforts in terms 
of focusing on the supply problem as a market. We know for a 
long time people have talked about the market characteristic of 
demand and supply, but we--I don't believe we have 
systematically examined what we're doing, especially in Federal 
enforcement and national security policy, to identify how the 
market works adequately and put our resources where we can have 
vulnerabilities.
    I have been frustrated in the past in discussions of this 
area where very intelligent business people talk about the drug 
problems sometimes as if you can't do anything because it's a 
market, and yet they are the same people who believe that 
government regulation of various kinds will drastically destroy 
commerce and markets in other areas. If there's a 2 percent tax 
on the Internet commerce we will destroy Internet commerce. I 
do not believe it's adequate to say we cannot do a better job 
on controlling supply when we have unlimited ability to try to 
regulate out of existence the drug market.
    I'm not saying we can be perfect here, but our goal here is 
to create a recession and depression in the supply that is the 
source of consumption for drugs. We also know that if we 
don't--as a market of supply and demand, that if we don't try 
to systematically bring both parts down, successes on one side 
will be undermined by the disproportion on the other. So we're 
trying to both fight demand first and foremost, but also make 
sure that we don't end up undermining our demand efforts by a 
plentiful supply. In that regard we have discussed and 
reviewed--and I won't go into detail, I will follow your 
questions--both what we're doing domestically.
    We're also in the process of trying to integrate our 
efforts on the border with the--and other efforts with regard 
to changes and adjustments to enhance our homeland security. 
That's an ongoing process as well as integration of 
intelligence connected with that effort.
    In addition, we are trying to put in place effective 
policies not only in this hemisphere, but especially now in 
Afghanistan to help try to control the resurgence of opium 
growth there. This is an area where probably the area ability 
to provide security is going to be the key in how much we can 
do, how fast, both in terms of development, institution 
building, and in making headway against drugs.
    In this hemisphere atmosphere I'd also like to thank 
members of the committee for their support in the extension and 
renewal of the Andean Trade Preferences Act. We regret, as I 
know some of you do, that this was allowed to lapse. It's been 
an important way of getting alternative economic activity in 
some of the drug producing countries. I think regrettably we've 
been on the verge of doing more to destabilize illicit market 
for goods in these countries by letting that lapse than we have 
been in the illicit markets of drugs in this region, and I 
think if we want to transition people into legal activity 
that's good for us as well as good for them, we need to have 
stability and we need to have action on that piece of 
legislation.
    Finally, let me just make reference to the performance in 
management changes outlined or proposed in this strategy. It's 
been my view for a number of years now, watching this from the 
outside, not expecting to come back into government, but as you 
said, Mr. Chairman, I was somewhat surprised but one cannot 
help but be honored by the call of the President to work on 
this important issue at this time. I think, though, the 
President and I are in agreement that not only is leadership 
needed here but leadership needs to be credible, and for 
leadership to be credible you have to have accountability in 
the system.
    You have to have real goals and you have to be able to 
demonstrate you're making headway. There's a difference between 
leadership and cheerleading, and we need genuine leadership. 
However much making an issue visible is important, if you don't 
have follow-through we aren't going to get to where we need to 
go. Not only did the President take what I believe is a 
courageous decision in the political environment of setting 
serious goals here which are ambitious of a 2-year reduction in 
drug use by teenagers and adults of 10 percent and 5 years of 
25 percent, but we timed those the way we did because we 
believe they are politically important to show accountability.
    However valuable 5 and 10-year goals will be in this town, 
nobody has a 5 or 10-year term in office. So to be politically 
meaningful, to have political accountability, you have to be 
within the political life of candidates, and the President made 
the, I think, important step of putting his credibility on the 
line here as well as his leadership.
    In addition, what we have proposed to do is to change the 
way we present the drug control budget. We would continue to 
collect the budget as it has been in the past and provide that 
information. But for the purposes of centrally managing the 
program, as many of you know who've been involved in this for a 
long time, over the more--almost more than a decade and a half, 
almost 2\1/2\ decades the drug control budget has been around. 
It grew up initially to show the costs of the drug problem to 
the government in various things there where consequent costs 
were included. Over time more things that were gathered that 
had some relation, I'm not saying in bad faith but parts of 
small--of larger programs that did something connected to 
prevention, treatment or enforcement were factored in. The 
problem is that even with the best of models, small parts of 
large programs were not manageable and continue not to be 
manageable.
    So we have a budget that largely presents resources that 
are either consequences or unmanageable program activities, 
both inflating the effort and not allowing us to manage 
resources where we think we can make the most effect. So what 
we're proposing to do is to narrow the drug budget to those 
programs on the supply and demand side that actually reduce 
drug use, which is our goal. This would take roughly 40 percent 
of the budget under our proposal and make it something we score 
separately but we don't present as the central managed budget.
    The other and most important thing from my point of view in 
accountability is the new budget that we propose would 
crosswalk with the President's budgets and individual programs. 
We've proposed taking programs that are basically--if they're 
mostly drug control programs, we're scoring them as 100 percent 
drug control and if they are--if they are minor we're taking 
them out of the scoring. That allows us not only to ask 
agencies for accountability but to have the ability for the 
first time since this office has existed to actually move money 
from one aspect of the problem to the other on the basis of 
results.
    My view is, and I didn't--I'm honored to come back into 
government, but as I think I've told both of you privately, I 
came here to make a difference. I did not come here to cope 
with the drug problem. I came here to reduce the drug problem. 
And if government programs and agencies are designed to cope 
with the drug problem, I'll ask them if they can't do that at 
25 percent less resources and we'll put those resources where 
people are going to reduce the problem in other programs. I 
think that's good management. I think that's the only way we 
create the kind of tension in the system to get things that are 
going to get us to the goals we've set for ourselves.
    That's my summary. There's a lot more to say, but I will 
follow your questions on the issues you want to go into more 
detail on. Thank you.
    [The prepared statement of Mr. Walters follows:]
    [GRAPHIC] [TIFF OMITTED] T4333.008
    
    [GRAPHIC] [TIFF OMITTED] T4333.009
    
    [GRAPHIC] [TIFF OMITTED] T4333.010
    
    [GRAPHIC] [TIFF OMITTED] T4333.011
    
    [GRAPHIC] [TIFF OMITTED] T4333.012
    
    [GRAPHIC] [TIFF OMITTED] T4333.013
    
    [GRAPHIC] [TIFF OMITTED] T4333.014
    
    [GRAPHIC] [TIFF OMITTED] T4333.015
    
    [GRAPHIC] [TIFF OMITTED] T4333.016
    
    [GRAPHIC] [TIFF OMITTED] T4333.017
    
    [GRAPHIC] [TIFF OMITTED] T4333.018
    
    [GRAPHIC] [TIFF OMITTED] T4333.019
    
    [GRAPHIC] [TIFF OMITTED] T4333.020
    
    [GRAPHIC] [TIFF OMITTED] T4333.021
    
    Mr. Mica. Thank you, Director Walters. I will start right 
out with some questions and there may be some additional 
questions that will be submitted to you. Chairman Souder, as 
you know, was delayed and the subcommittee may have some 
additional questions that you could respond to in writing, but 
right now one of the important things and emphasis has been of 
course education and trying to develop some type of a public 
campaign. The leadership of the President and personal 
attention, involvement, and setting standards I think is very 
important. We--and that will not be lacking, I think, with this 
President. He has already made that clear both by his actions 
and by your appointment and other initiatives.
    But this subcommittee started a media campaign, I think it 
was back in 1998, and it's a $1 billion program over a number 
of years. It started out somewhat disorganized and then 
unfortunately it had some additional problems, and I think 
there's been some fines levied and penalties levied and I think 
there's still a criminal investigation pending from the last 
I've seen on some of the billing practices in that.
    The education program is most important. I think we all 
believe that the media program that we intended, and it can 
change people's attitude, it has such a great impact. Can you 
tell us--and it was music to my ears that you're evaluating 
programs on the basis of performance. Can you tell me how you 
view the media campaign at this juncture, where do we go from 
here and how do we make it as effective as possible?
    Mr. Walters. Yes. I actually was a critic of the original 
proposal for the media campaign, not because I don't think it 
can be a valuable tool. We've had public service campaigns for 
some time. In fact I helped create one when I worked at the 
Department of Education on drug prevention, one of the--the 
first one the Department of Education had ever done. I was 
concerned that the--some in the environment would suggest that 
leadership can be handed over to advertising people and did not 
require the kind of national effort and commitment. But in the 
current environment, I think that the campaign is valuable and 
has--as I've been able to learn about it over the last 2 
months, a little over 2 months since I've been in office, I 
think it has considerable sophistication and utility.
    The ultimate measure of whether it works though has to be 
whether we get the drugs down. We have proceeded on the basis 
of much of advertising and previous studies about drug use that 
if we change attitudes, which is what the advertising 
information is designed to do, to educate in the way that 
changes attitudes about drug use, we will reduce drug use if we 
change those attitude for the better. There is some evidence 
that attitudes have changed in connection with the campaign, 
and we certainly have had what was a steady increase in teen 
drug use level off, but I'm not happy to be at a level state at 
this level of use. We need to drive it down. We have tried most 
recently--we're in development--ads in development when I first 
arrived and we accelerated them, ads that you may have seen on 
the issue of drugs and terrorism. We have pressed this campaign 
aggressively given the research that was available to us on the 
effectiveness of this on both the attitudes of young teens, 
young adults and, surprisingly to us, by parents who found that 
the message and the link talking about responsibility for 
larger consequences of drug use and funding terror was an 
important message for them to use in discussing the problem 
with their children.
    For many years, as you know, we have talked to young people 
in both educational materials and advertising about the 
consequences of drug use to them. We'll continue to do that. 
But teenagers are also at an age where they sometimes feel more 
immortal and invulnerable than other people at other ages. So 
in buttressing that, this part of the campaign draws on their 
idealism, which is also powerful at the age that they are, and 
talks about what they want to be seen as representing in their 
lives. We are hopeful that campaign as a part of what we're 
doing will have a broader effect, and we're extending it, but 
the campaign ultimately has a relatively expensive evaluation 
component going to allow us to have more detailed information 
and we'll know in the next 6 to 12 months whether it's been a 
contributor or it's been helpful in reducing drug use when we 
get those national surveys.
    Mr. Mica. It would be helpful to also have some method of 
evaluating the effectiveness of these programs and report back. 
I don't know when you officially have sort of taken over that 
campaign, but that's something else we need to measure. One of 
the problems we have too now with heroin use, changes in heroin 
use and changes in cocaine among youth, we may have seen some 
minor fluctuation or stabilization. But then you see Ecstasy 
shooting through the roof as sort of a drug substitution 
program, and I'm not sure if we're still being as effective as 
we should be and that needs to be measured.
    One of the other items that you brought up is the linkage 
between terrorism and narcotics, and whether it's Colombia or 
Afghanistan, those are two great examples of terrorist activity 
being funded by narcoterrorism. I was pleased to hear the 
President during his role out at the White House talk about the 
need to continue the efforts in supply. If you took heroin, and 
in particular Colombia and Afghanistan, that region, those two 
regions account for about 95 percent of the entire world's 
production, is there any effort that you know of now that you 
could speak about in Afghanistan or any new support for 
Colombia?
    Again Colombia has now taken initiatives to go after the 
narcoterrorists in FARC and the regions that have been formerly 
set aside. Anything you can comment that may be a new approach 
or part of this plan?
    Mr. Walters. Let me take Afghanistan first. The central 
problem that we face is not one of commitment. The new interim 
government in Afghanistan has committed itself to eradicating 
the opium trade. The problem is the government is new. The 
institutions it would need to carry that out are not in place. 
The security of the countryside, as you know, is not in place 
for both purposes of development even--excuse me--over the long 
term feeding people as well as controlling the drug trade. We 
need to begin the process of establishing security and building 
those institutions. That's ongoing and we are still developing 
policies to go in behind the progress on security.
    I do think it will be--we should not minimize the 
difficulty here. We have parts of Afghanistan where opium is 
essentially a currency, where it's used for trade, not 
consumption because of its value in the market. We know that 
there have been reports, although we don't know precisely yet 
the scope of planting, but we know there's been a lot of 
replanting after largely eliminating large planting areas last 
year.
    So it will not probably be a 1-year task and it will be 
necessary to have viable security in these areas as well as 
effective alternative development where people are depending on 
this crop literally to eat and feed their families. We cannot 
just expect them to cooperate without giving them an 
alternative for maintaining their lives and their well-being 
over time. We're hopeful that this gives us an opportunity--and 
I will say one other thing. Having said it, it's difficult in 
Afghanistan.
    When I was last in government in the President's father's 
administration, that whole region of the world, Afghanistan and 
the opium problem was thought of as just impossible. It was too 
far away. It was too remote a priority. We really couldn't do 
anything about it, and yet we knew it was part of the bread 
basket for the world. On the upside, while the task is 
certainly serious, we have an opportunity to do something where 
we never thought we could do something before and we now are 
acutely aware that here and other places large amounts of money 
and the consequent behavior and support that drug trafficking 
does to a lot of bad things in the world and attacks on 
democratic institutions and civilized life has to be dealt with 
and we have an opportunity to do that if we stay at it and can 
find effective ways. It will not be easy, it will not be quick.
    Mr. Mica. My question, and I'm going to sort of cut to the 
chase here, is I mean this isn't rocket science. We have spring 
coming up. You've got people starving in Afghanistan. We've had 
a war conducted there and you're saying, you know, they need 
alternative development. Do we have sort of a quick plan in 
place for helping them maybe to develop some crop substitutes 
if people are going to produce opium or they're going to 
produce food products that can be sold. Either way they're 
going to try to get some cash and in the past the cash has gone 
from drug production to terrorist support. Do we have--are we 
looking at a plan of----
    Mr. Walters. I don't think the security situation has 
allowed us to deploy a plan yet. What we've done is we've 
looked with allies, mostly in European countries, to try to 
begin with basic security, then extend that security to disrupt 
the opium markets where we have the extension and ability to do 
that.
    Mr. Mica. We need to look seriously at an alternative 
project.
    Mr. Walters. I agree.
    Mr. Mica. I mean it's not rocket science to get some seeds 
and some other things and some low level, if not Peace Corps, 
some international U.N. Folks in there, someone to do there, 
but there needs to be some alternative.
    The other part of the question was Colombia.
    Mr. Walters. Yeah. The situation in Colombia in the last 
several days, as you know, has changed dramatically because of 
the decision of President Pastrana to take a more aggressive 
role against the FARC. We are now in the process of evaluating 
and determining what administration policy will be here. We 
have not made a final decision. I would say, though, and I 
think I take this opportunity, not an insignificant issue, and 
that determination is the dialog we have to have with Congress. 
There has been a long history here. There have been in the 
current legislation and appropriations limits expressed 
strongly by Congress on what it does and does not want to do. 
We are pushing against those limits now, and if we do any more 
there will have to be probably some adjustment in those limits 
because if we are going to be able to proceed we want a 
bipartisan policy. I think we want the support of the Congress 
and the executive branch here. This is part of a broader 
security issue not only in this hemisphere, but about 
terrorism, and I think that what we can do, and it's fair for 
you to say to us we need to figure out what we want to do, and 
we're doing that as promptly as we can, but ultimately I think 
it's also going to be a matter of having some agreements with 
the Congress about what you're prepared to do as a partner in 
our policy activity here, and there's going to be tough 
choices, I know.
    Mr. Mica. You're throwing that back to us, but I can tell 
you we've been through 3 years of this and Colombia's been 
through this for 30 years and it's time for somebody to get 
some starch in their shorts. I'm glad that President Pastrana--
and we had a prayer meeting with him in December. I'm glad that 
he has gone back and finally taken some action. It's nice to 
hold out the doves of peace and look for a bipartisan solution, 
but I would really be saddened if this administration misses an 
opportunity now to back up what should have been done a long 
time ago and that's get tough with the terrorists and take them 
out.
    I think we need to put whatever resources here. I'm going 
to try to mount with other Members and I know there's the folks 
that are singing kum-baya and all of that around here, but 
we've seen the only way you can deal with terrorists is through 
tough measures, and he's tried the alternative and they've 
slaughtered people day after day after day and it needs to come 
to a stop.
    So you're hearing from me. I think Mr. Souder has a 
similar--Mr. Gilman, others, and you may hear from some others. 
You may not hear the bipartisan chorus, but that's sometimes 
part of the leadership role.
    I wanted to finally just ask one question about treatment 
programs and then I'll give the remaining time to Mr. Cummings. 
In the past--now I've heard you say you're going to put some 
measures in place to actually do evaluations of successful 
treatment programs. I have no problem spending however much 
money necessary on treatment. There's nothing worse than having 
somebody subject to addiction, a loved one or a friend. We've 
all now--almost all throughout the country everybody can cite 
some example and it affects every family. But there are many of 
these programs that have disastrous records, they are not 
successful. When will you have in place some criteria by which 
to evaluate whether they should be eligible and then when will 
we see the determination of some of the unsuccessful and 
support--you said you now have adopted the flexibility to move 
funds from successful programs, unsuccessful to successful and 
however. When will that take place?
    Mr. Walters. First of all, I want to make sure there's not 
a misunderstanding. The movement of moneys among programs were 
among Federal programs and were not going to get down to the--
in most cases to the individual treatment providers but----
    Mr. Mica. But that's part of it because if I have 
individual treatment providers----
    Mr. Walters. Yes.
    Mr. Mica [continuing]. Who aren't successful, technically 
you're going to be moving the money around because those that 
have failed aren't going to get the money and you're saying 
you're going to have some evaluation. When will that be 
available and then when will we see some of those that aren't 
successful being sort of cutoff from the public trough?
    Mr. Walters. What we want to put in place here with the 
combination of resources that we've used for the treatment 
increase that we've proposed is additional moneys in the block 
grant and then we're now going to work with HHS and States who 
receive those block grants to see if we can improve both the 
measurement and effectiveness of the delivery of those 
resources. The central problem here has been that evaluation 
data has not been kept in most of these cases because it's 
difficult to longitudinally follow people who are discharged 
from the program.
    We can keep data about dropout rates. We know how many 
people register and drop out. That's one measure and certainly 
not insignificant, but the real problem is measuring outcomes 
after the people are discharged when they frequently go on to 
an outpatient--sometimes an outpatient setting or even from an 
outpatient setting back into the community in various ways. 
We're working--there's a new system that's been created to 
measure nationwide admissions, which should be on line this 
spring, which will give us an opportunity to have real-time 
data of who's coming in and then we begin to collect some 
information about those people's histories here of treatment.
    I don't want to mislead you. I don't think we're where we 
need to be on fully evaluating outcomes on treatment. I do 
believe, however, that a central problem for my office, as I've 
talked with our staff, is my concern from working in this area 
in the past, working in the President's father's 
administration, where we put a larger increase over the 4 years 
of that administration into Federal drug treatment spending 
than any other administration, whether it lasted 4 or 8 years, 
that when I looked at the then reports of number of treatment 
slots with that increase, the number of slots nationwide went 
down. Now, that would not necessarily be bad if the quality of 
the slots were improving and therefore we were getting better 
outputs, which is acclaimed by some but of course there's not 
any outcome--there's not any longitudinal data to demonstrate 
that as effectively as we would like.
    So what we're going to try to do is work with the State 
providers as well as take a larger portion of the increase and 
put it into what we're calling targeted expansion--targeted 
past the expansion grants which we will more directly be able 
to shape evaluative criteria for, so that we can look at the 
outcomes of these programs. But right now the easiest measure 
you've got is dropout rate and we'd have to control for the 
kind of client that's coming in because the more severely 
affected are going to be more demanding and we don't want to 
compare people who are--essentially taking the easier clients 
and comparing them against clients--those who have the courage 
and the effort to work on harder clients.
    But right now the easiest measure we have, which is not 
always kept of course, is dropout rate. We also have some 
cases, we have testing results of how many people and what 
rates of use are continuing during treatment and some time 
afterwards, but ultimately what we need is the capacity we're 
building in the system, substantially reducing the people who 
are in need of treatment. And right now we don't even have a 
precise measure of the population that needs treatment despite 
all these years of study.
    The frustration I had in coming in and trying to implement 
the President's statement of policy was when we looked--when I 
asked, and the President had directed HHS to produce a new 
report showing the scope and the location of the need, we did 
not have the kind of information you'd like to have to manage 
the program. So we're working with HHS to try to get a better 
measure, but right now when I tell you there are 5--roughly 5 
million people who need and could benefit from treatment, that 
is an extremely rough guess and if you wanted to say, you know, 
where exactly is the need, you can talk to individual providers 
in the field and you can talk to people, drug courts, you can 
talk to health care people, you can talk to others where there 
is a need, where there are waiting lists, where you need to 
have treatment on demand.
    But that's not based on a national census. That's based on 
who you talk to and how reliable their reporting is. We need to 
do a better job here. I don't think we can manage the kind of 
expansion we want. We can't credential good programs and follow 
through with that kind of data. And I recognize, too, that the 
cost of collecting some of this is expensive and we are 
balancing service provision versus evaluation costs. But 
nonetheless, there is in my view in prevention, in treatment 
and in law enforcement a common fundamental challenge, which is 
cynicism about whether any of this makes any difference. We 
have to--part of the leadership responsibility here is to 
explain that things do make a difference. And when we push, the 
problem is pushed back on. But we can't do that without 
specific results and data that is credible and more detailed 
than we have right now.
    So I don't want to mislead you. We are doing this without 
the kind of specific information that we would like to have and 
we will try to develop over the next year.
    Mr. Mica. We have two cottage industries. One is 
unsuccessful drug treatment programs and the other is studying 
and evaluation of the various programs. We held a hearing, and 
I will get staff to get you a copy of that--tens of millions of 
dollars on evaluation studies NIDA and others have conducted. 
All the firms within, what was it, 50 or 60 miles of 
Washington, DC, spent tens of millions and nobody can figure 
out what the hell works and what doesn't.
    Mr. Cummings, you're recognized.
    Mr. Cummings. Thank you very much, Mr. Chairman. I think 
what you just said, Director, is part of the problem. We got to 
attack the problem. Just like you said, we've got to have 
prevention. We've got to have interdiction. We've got to have 
treatment. But at the same time when it comes to treatment, 
trying to figure out what works is a real--is a tough one. And 
I agree with you. I don't know how you do that. We have had 
hearings on that. But at the same time, we don't want to come 
into a situation where because of people's pessimism about 
treatment that the treatment dollars then disappear. And I 
think that's a concern.
    So I think that trying to come up with some type of 
reasonable measuring tool would be helpful. But I must tell you 
that we had testimony on this, and one of the things that they 
talked about is how difficult it is because I think you 
mentioned it just now, different people come in at different 
levels. Different people have different circumstances at home, 
support systems, all kinds of stuff.
    So, you know, I was just wondering, did your staff have a 
chance to review the Baltimore Steps to Success study by Johns 
Hopkins, Morgan State University and University of Maryland? It 
seems to say that there is definitely some value to treatment. 
And I was wondering, did you have an opinion on that or you 
just haven't gotten familiar with it?
    Mr. Walters. I don't want to say that it's because we don't 
have data about the precise focus of additional Federal dollars 
that I don't think treatment works. The President believes 
that, I believe that.
    Mr. Cummings. I wasn't talking about that. I was talking 
about Mr. Mica.
    Mr. Walters. But the frustration, I think, in this and 
other areas is to not only increase the effectiveness of the 
programs doing work in these areas, but also to measure 
adequately whether the resources and the policies are adequate 
to make the kind of incremental change we want. It is not just 
can we find a good treatment program. There are a lot of good 
treatment programs. But is 1.6 billion enough? How much more 
should we spend? I mean we face this in a variety of areas on 
supply and demand side and we're trying to make our ability to 
influence the budget more direct and powerful. But that 
influence has to be guided by where we think we are going to 
make a difference. And that's why we need to have some of those 
measures. I am continuing the process of meeting with both 
private individuals and State and local officials to find out 
if there's a way of directing the dollars into current 
structures that will be more effective or that we can have 
individuals whose responsibility at the State or local level is 
more systematically tied to meeting and assessing and following 
up on the assessment of needs so that we're spreading the 
capacity where we need it and in the forms we need it.
    I think I mentioned to you when we met, I think one of the 
most powerful things about drug courts aside from using the 
criminal justice system leverage is the case management 
function you get with the drug courts. Not only do you have the 
judge having influence over an individual to get and stay in 
treatment and the other related services, but the judge becomes 
a case manager. They have the social worker. They have a parole 
officer, treatment provider. Many times they have other kinds 
of mental health care, housing, job training, other things that 
they bring together. And of course the unique thing about a 
judge is, unlike some other government employees, they actually 
not only give orders but expect them to be carried out and will 
insist that they be carried out.
    So you have the ability to put the parts together to make 
this as kind of cohesive as possible, and I think that may be 
the reason for the effective results in addition to the 
compassionate coercion that's there. The question is how do we 
build that on the other side.
    One of my staff members is going to talk to our colleagues 
at the Department of Veterans Affairs because they have been 
understood in the past to have a kind of case management 
capability for the people they are serving in the veterans 
community that might be replicable in other kinds of 
institutions. But I am just beginning to meet the meeting 
process with State and local officials who receive some of 
these Federal programs and can talk about how we can either 
explain how the management of these things are working better 
than many people think, which I will be happy to get more 
information that's good news, but what other kinds of structure 
we can build into this and authority to have this be managed. 
My great fear is that we put in $1.6 million, it will get 
spent, we all know that but the question is what's the result 
and how do we tell what the result is and how far do we sustain 
the support.
    So, yeah, the easiest part of the job is proposing. It's 
implementing that's the problem, and I am acutely aware that is 
the major task we now face.
    Mr. Cummings. Speaking of drug courts, I know the 
President's budget has 52 million for grants to States to 
establish drug courts and that is an increase of 2 million. 
Just based upon what you just said you have a pretty strong 
belief in drug courts.
    Mr. Walters. We have not made any policy decisions, but I 
have asked my staff to prepare scenarios for the ways in which 
we could most rapidly expand drug courts in the shortest period 
of time. That may not just be with Federal resources, but I 
have also asked what it would look like. If we are going to be 
able to move money around, let's find out what works, see if we 
can't move money into those areas that work.
    Mr. Cummings. Director, one of the things that we like on 
this committee--both sides like this DTAP program up in New 
York. And one of the elements of the program is that it helps 
people find jobs. And that is a key element, because I think 
what happens to a lot of these folks is that you got all that 
structure that you just talked about, but then you need to give 
them something to do as opposed to standing on corners and 
getting back into the groups they have been in. And as I was 
sitting here and listening to you, I was just wondering--and 
then we have a problem in Baltimore which finds former inmates 
jobs. That's all they do. And it's a very successful program 
and Federal funds are used to do it and State funds--Federal 
funds that come to the State. And I'm just wondering, we might 
want to take a look at our Department of Labor when we're 
looking at drug courts and say, well, how can we get the most 
bang for our buck and try to find jobs. They're already being 
supervised. They're already gone through the urine screening 
and that kind of thing, but then you have to have the job piece 
and I think that's why this DTAP program is so successful.
    I don't know if you saw Nightline last night.
    Mr. Walters. I didn't, but actually my wife did and I have 
seen a partial transcript of the show.
    Mr. Cummings. It was chilling about Mexico and how these 
millions upon millions of dollars are being used to bribe folks 
and judges, and if you don't accept the bribe, you get killed 
and all that kind of thing. And I was just wondering, do you 
have any comments with regard to Mexico?
    Mr. Walters. Yeah. I traveled to Colombia and Mexico 
shortly after I was confirmed. Given the range of issues on the 
international side that we have with those two countries, and I 
didn't have much time, but in Mexico I was struck by what you 
have seen in the press and what many of you already know about, 
that under very difficult situations the new administration and 
its key people around President Fox are trying very hard to 
make a difference, I think. I recognize we've had periods 
before where people thought a new administration was making 
changes and people were disappointed, and I wouldn't claim to 
be the longest veteran in observing these things. But the 
people I met are working in this effort in various ministries, 
from health to law enforcement and foreign affairs, and are 
very dedicated. It's a thin crust of people and they are aware 
that their lives are on the line, I think. And they have people 
working for them that are obviously--one of them I think the 
show talked about was murdered a few days ago, while 
Administrator Hutchinson was in Mexico, in fact.
    There's no question that the Arellano Felix organization, 
which was a feature of the show, is probably the most dangerous 
organization in this hemisphere. The Mexicans have aggressively 
gone after them. They may have one of them, although it is not 
confirmed yet, was killed in a gun battle.
    But nonetheless, if there was any question about whether 
drugs fund terroristic behavior, behavior designed to destroy 
democratic institutions and intimidate people, I think you 
don't have to look any further than Mexico. You can look at 
Colombia and look at the 12 or the 28 terrorist organizations 
that have been designated by the State Department that are 
involved in drug trafficking. We know this at home as well. I 
mean we know that in the neighborhood that we walk together in.
    Americans have been suffering that same kind of violence, 
not always the same magnitude or not always the same way, 
getting always against our fundamental institutions in 
assassinating presidents or attorneys general. But it is not an 
accident that our government officials have security as well 
and it is not just because of crazies. Some of them it's 
because they are involved in this kind of enforcement. So 
there's real courage here. We are trying to build capacities to 
combat these organizations. But we have to take these 
organizations down. We can be partners with these countries 
because democratic nations are in partnership, but there is no 
substitute for taking these organizations down.
    The President has also been very firm with me every time I 
met with him. He understands the cornerstone of that 
cooperation is that we have to reduce demand in our country, 
that we provide the incentive and the dollars that are given in 
buying drugs to support this infrastructure. And we need to 
attack the infrastructure, but we also fundamentally must 
reduce demand and we are not going to do that without reducing 
demand.
    So I agree with you, it is a dangerous situation and I 
applaud the courage of the Mexicans and frankly a lot of U.S. 
personnel that are working in these countries to support our 
allies.
    Mr. Cummings. Let me just let you know something. When you 
were involved in Baltimore, when you had an opportunity to sit 
down and talk directly with 12 recovering addicts, I did a 
little survey after you left. I got some staff people and we 
talked to them and they were very pleased that you took the 
time to be there. But something came out of that, Director, 
which is very interesting. When we asked them how many or what 
were they spending on drugs a day, a day, the average was $110 
a day before they went into treatment and none of them had 
jobs. Now that's deep. No jobs and before treatment spending on 
the average of $110 a day. That means--I am cognizant of the 
time and I see your staff is getting fidgety back there. We got 
you covered. But $110 a day. That means some lady's pocketbook 
that would have been stolen, somebody may have been killed, 
somebody's house may have been broken into. And you know, I 
guess I wanted to leave that with you because I know you move 
around the country and might want to put that in you computer 
because--and that was just 12. And we were just talking about 1 
day, $1,200.
    So but the other thing I wanted to ask you about is HIDTA. 
This reduction, $20 million reduction in--and we are very 
concerned certainly in Baltimore about HIDTA and I was 
wondering how--I mean what was the basis of that decision to 
reduce the HIDTA situation. We always thought HIDTA was a great 
thing and I know you're looking at competing priorities, all of 
which are very important, but I want to know what went into 
that decision.
    Mr. Walters. The HIDTAs request that went into the 
President's budget is the same as it was before. I recognize 
Congress added 20 million. The administration did not include 
that increase in its request. Let me give some context to this. 
And here I will ask for a little bit of an excuse on the basis 
of I got here a little bit late. And in the confirmation 
process, in talking to Members of the Senate, if I needed any 
education about the importance of the HIDTA program, which I 
didn't, but I got it because a third of the Senators I met with 
during courtesy calls had somebody they wanted me to hire and 
two-thirds wanted more money in their HIDTA. After they asked 
for the money in their HIDTA they said to me you either got to 
get a handle on this program because it's kind of not being 
managed very well.
    So yeah, I believe that as originally conceived and as many 
of the HIDTAs--I am trying to get around to see as many of them 
as I can. I didn't have a chance to stop during our visit, but 
I am trying to get to see as many as I can. Our goal in 
conducting the review that we have underway in these programs 
in general, but this is in our office, is we want to use this 
program to focus resources where they can make a difference in 
the areas where these exist. There has been a problem with 
that. I think everybody recognizes that in the program. Does it 
say all the HIDTAs have problems?
    But what I need to satisfy myself about is that we can go 
ahead with a focus. And I am also working with the Attorney 
General, who has committed, with his deputy, to reshape and 
restructure the OCDETF program. We want these programs where 
they can to work more effectively together and we also want to 
provide a way--again on the law enforcement side create 
standards of measurement, results and accountability that will 
allow us to both manage and sustain the funding, not 
necessarily increase the funding of these programs.
    As you probably know, HIDTA on the law enforcement side has 
also been talked about as a model for sharing information on 
the homeland security front with State and local law 
enforcement where there has been some friction in the last 
several months. In some of the HIDTAs that is going on, and I 
think those results while they're early we want to share with 
you as well.
    I guess what I'm saying here is we take the program 
seriously. We think these do valuable work and we do think we 
need to look at them to make the best case for various levels 
of funding. We try to sustain in this budget the administration 
request of last year. I would not be surprised if Congress puts 
more money in the HIDTA program given what I've seen. But I do 
think that even the people who are the biggest fans of the 
program believe that and have asked me privately to give a 
better accounting of the program. We have some audits ongoing, 
but I think the real issue is what's the focus, what's the 
results, how do the various HIDTAs fit in and what can we 
really expect to do. If we can provide adequate answers to 
those questions, then I think the program is in the best 
position for support in the executive branch as well as in 
Congress.
    Mr. Cummings. This is the last question. One of the things 
that is happening in the African American community is we're 
seeing more and more of our black children spending time in 
jail, and the concern is the disparity between powder cocaine 
and crack cocaine and the minimum--the mandatory minimum 
sentences. One time I think even some African Americans looked 
at it and said, well, those are just people that are involved 
in drugs. But then they began to look at it and see, I mean, 
just phenomenal numbers of their children spending time in 
jail. It gets to a point--then you have to ask the questions 
why. And when you see the disparity in sentencing, that is a 
major, major concern. And I was just wondering if you have any 
comments on that.
    Mr. Walters. Yes. We now in the administration are 
reviewing the mandatory minimum sentence structure and we are 
not done yet, but in conjunction with the effort that's been 
charged to the Sentencing Commission, we will I think have a 
recommendation within the next month. It's not done yet, so I 
can't tell you the decision. But I spoke about this not only 
during my confirmation with Senators on the Judiciary Committee 
in the Senate, but both the President and the Attorney General 
have indicated a desire to review this. So I think we're not 
far from results on that.
    Mr. Cummings. I just want to thank you again, first of all, 
for taking on this tremendous responsibility and thank you for 
being in Baltimore. And I just wanted to assure you that we 
agree with you on both sides that we want taxpayers' dollars to 
be spent effectively and efficiently. And we will work with you 
to make sure that you know when you decide to move out of this 
office that you can look back and say you know you had a 
Congress that worked with you as opposed to against you, but 
wanted to work with you so you could get to where you've got to 
go, so our country will be a better place for all of us to 
live, matter of fact the world to be a better place.
    Mr. Mica. Thank you, Mr. Cummings, and also want to thank 
our Director of the Office of National Drug Control Policy for 
being with us in presenting the President's national drug 
control strategy plan before us today. I think we're right 
within the time limits that we set, and there being no further 
business, I have one request. Ask unanimous consent that all 
Members may have 5 legislative days to submit written 
statements and questions for the hearing record and that any 
answers to written questions provided by the witness also be 
included in the record. Without objection, so ordered.
    There being no further business of the subcommittee, this 
hearing is adjourned. Thank you.
    [Note.--The publication entitled, ``National Drug Control 
Strategy, The White House, February 2002,'' may be found in 
subcommittee files.]
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Mark E. Souder and 
additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T4333.022

[GRAPHIC] [TIFF OMITTED] T4333.023

[GRAPHIC] [TIFF OMITTED] T4333.024

[GRAPHIC] [TIFF OMITTED] T4333.025

[GRAPHIC] [TIFF OMITTED] T4333.026

[GRAPHIC] [TIFF OMITTED] T4333.027

[GRAPHIC] [TIFF OMITTED] T4333.028

[GRAPHIC] [TIFF OMITTED] T4333.029

[GRAPHIC] [TIFF OMITTED] T4333.030

[GRAPHIC] [TIFF OMITTED] T4333.031

[GRAPHIC] [TIFF OMITTED] T4333.032

[GRAPHIC] [TIFF OMITTED] T4333.033

[GRAPHIC] [TIFF OMITTED] T4333.034

[GRAPHIC] [TIFF OMITTED] T4333.035

[GRAPHIC] [TIFF OMITTED] T4333.036

[GRAPHIC] [TIFF OMITTED] T4333.037

[GRAPHIC] [TIFF OMITTED] T4333.038

[GRAPHIC] [TIFF OMITTED] T4333.039

[GRAPHIC] [TIFF OMITTED] T4333.040

[GRAPHIC] [TIFF OMITTED] T4333.041

[GRAPHIC] [TIFF OMITTED] T4333.042

[GRAPHIC] [TIFF OMITTED] T4333.043

[GRAPHIC] [TIFF OMITTED] T4333.044

[GRAPHIC] [TIFF OMITTED] T4333.045

[GRAPHIC] [TIFF OMITTED] T4333.046

[GRAPHIC] [TIFF OMITTED] T4333.047

[GRAPHIC] [TIFF OMITTED] T4333.048

[GRAPHIC] [TIFF OMITTED] T4333.049

[GRAPHIC] [TIFF OMITTED] T4333.050

[GRAPHIC] [TIFF OMITTED] T4333.051

[GRAPHIC] [TIFF OMITTED] T4333.052

[GRAPHIC] [TIFF OMITTED] T4333.053

[GRAPHIC] [TIFF OMITTED] T4333.054

[GRAPHIC] [TIFF OMITTED] T4333.055

[GRAPHIC] [TIFF OMITTED] T4333.056

[GRAPHIC] [TIFF OMITTED] T4333.057

[GRAPHIC] [TIFF OMITTED] T4333.058

[GRAPHIC] [TIFF OMITTED] T4333.059

[GRAPHIC] [TIFF OMITTED] T4333.060

[GRAPHIC] [TIFF OMITTED] T4333.061

[GRAPHIC] [TIFF OMITTED] T4333.062

[GRAPHIC] [TIFF OMITTED] T4333.063

                                   - 

</pre></body></html>
